DEPARTMENT OF THE AIR FORCE
AIR FORCE APPELLATE DEFENSE DIVISION

2 October 2020

Air Force Appellate Defense Division
1500 West Perimeter Road, Suite 1100
Joint Base Andrews, Maryland 20762
Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
RE: Petition for Writ of Certiorari, Richards v. Barrett et al.
Sir,

Please find enclosed a single paper copy of the Petition for a Writ of Certiorari in
the above-styled case, in accordance with this Court’s order, dated April 15, 2020.
In accordance with Rule 40.3 of this Honorable Court’s Rules, Petitioner may
proceed without payment of fees or costs or furnishing security therefore and
without filing an affidavit for indigence.
Attached to this letter are the required proof of service on the Solicitor General and
proof of compliance with the word count.
Please contact me with any questions concerning this matter. Thank you.
Very Respectfully Submitted,

ALEXANDER A. NAVARRO
Appellate Defense Division
Air Force Appellate Defense Division
(240) 612-4770
alexander.navarro.4@us.af.mil
2 Attachments:
1. Certificate of Compliance
2. Certificate of Service

No.
In The

Supreme Court of the United States
JAMES W. RICHARDS IV,
Petitioner,
v.
BARBARA M. BARRETT,
SECRETARY OF THE
AIR FORCE,
AARON GUILL,
COLONEL, COMMANDER,
AIR FORCE SECURITY FORCES CENTER,
CAROLINE K. HORTON,
COLONEL, COMMANDANT,
UNITED STATES DISCIPLINARY BARRACKS,
Respondents.

On Petition for a Writ of Certiorari to the
Court of Appeals for the Armed Forces

CERTIFICATE OF COMPLIANCE
In accordance with Supreme Court Rule 33.1(h), I certify that the
Petition for a Writ of Certiorari contains 5,323 words, excluding the
parts of the Petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.

Executed on October 2, 2020
ALEXANDER A. NAVARRO
Counsel of Record
Appellate Defense Division
United States Air Force
1500 West Perimeter Road Suite 1100
Joint Base Andrews, MD 20762
(240) 612-4770
alexander.navarro.4@us.af.mil

No. ______
IN THE

Supreme Court of the United States
____________

JAMES W. RICHARDS IV,
Petitioner,
v.
BARBARA M. BARRETT,
SECRETARY OF THE AIR FORCE,
COLONEL AARON GUILL,
COMMANDER, AIR FORCE SECURITY FORCES CENTER,
COLONEL CAROLINE K. HORTON,
COMMANDANT, U.S. DISCIPLINARY BARRACKS,
Respondents.
____________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Armed Forces
___________
CERTIFICATE OF SERVICE
___________
I, Alexander A. Navarro, a member of the Bar of this Court, hereby certify that on
this 2nd day of October, 2020, one of the Petition for a Writ of Certiorari in the
above entitled case were mailed to the Solicitor General of the United States,
Room 5616, Department of Justice, 950 Pennsylvania Avenue Northwest,
Washington DC, 20530-0001, counsel for the Respondent herein, in accordance
with this Court’s Rule 29.3.
I further certify that all parties required to be served have been served.
Executed on October 2, 2020

ALEXANDER A. NAVARRO
Counsel of Record
Air Force Appellate Defense Division
alexander.navarro.4@us.af.mil
(240) 612-4770

